GR-90-99-002
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 

Office of Justice Programs, Bureau of Justice Assistance
Police Hiring Supplement Grant to the 
Phoenix Police Department
Arizona
 
GR-90-99-002
 
OCTOBER 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA), to the Phoenix Police Department (PPD), Arizona. The PPD
received a grant of $2,100,000 to hire 28 additional police officers under the Police
Hiring Supplement (PHS) program. The purpose of the grant was to enhance community
policing efforts.

We found the following weakness during our audit regarding grant conditions:



The PPD generally was not in compliance with grant reporting requirements. The PPD
      failed to submit three quarterly Progress Reports for 1994, all quarterly Progress Reports
      for 1995, and the first three quarterly reports for 1996. The PPD also failed to submit
      the semiannual Progress Report due on June 30, 1997. In addition, four of the 13 required
      Financial Status Reports were not submitted timely.


The above item is discussed in the Findings section of the report. Because the grant
period has expired, we are not making any recommendations. Our audit scope and methodology
are described in the Appendix.
#####